                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109070032                                                                     Page 1 of 1

                                                                                                                    I[
                                                                                                                    II
          We received an allegation I concerning issues with the financial management of an NSF award2             !I
          and the potential comingling of funds with the awardee's3 for-profit subsidiary.4 After reviewing        II
          financial documents of the NSF award and a second NSF award, 5 we determined that the issues             I
          are indicators of poor internal controls rather than fraud. We have recommended the Office of            I
        . Audit consider the awardee in its annual audit planning.

         Accordingly, this case is closed.




                                                                                                              If
                                                                                                               i
                                                                                                              II
                                                                                                              :r




         .2


         5




NSF OIG Fonn 2 (11102)
